*s

I

1

Supreme Court, U.S.
FILED

*,

No.

NOV 0 9 2020

Jo-7^

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

David Wvche
(Your Name)

— PETITIONER

vs.
OSHA Department Labor

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

U.S. Court of Appeals 2nd Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

David Wyche
(Your Name)
1 Towne Center Apt 621
(Address)
Cliffside Park, NJ 07010
(City, State, Zip Code)

7185141178
(Phone Number)

RECEIVED
NOV 1 8 2020

j

QUESTION(S) PRESENTED
1. Under the OSH Act of 1970
Do I fit the criteria as a whistleblower (1) considering I made work complaints to human resources; within
two weeks of my final protected activity complaint I was terminated, (2) I was abruptly discharged without
any human resources investigation addressing my work complaints, (3) I provided the respondent with
images I captured of wet electrical equipment I was told to operate by my former employer to display unsafe
work conditions, (4) the respondent failed to contest the original “prima facie” established with evidence e.g.
employee records, (5) the respondent referred to evidence that supported their regional July 10, 2019
dismissal decision of my whistleblower claim, but failed to disclose or provide said evidence (Exhibit A)?
2. According to Title 5 of the Privacy Act of 1974
Did the respondent violate this act (1) when my employment records e.g. employee training records were
omitted in a whistleblower-employment investigation, (2) the respondent did not collect or maintain my
employment files, but conducted an employment investigation, (3) the respondent dismissed my
whistleblower claim without authenticating my employment record with my former employer, (4) I received a
copy of my administrative record from the respondent which omitted employment records (FOIA
REQUEST)?
3. Under the federal “Judicial Review” and the “Right of Review” Statues
Did the lower court disregard these statutes (1) when circuit judges refused to hear my case despite the fact
I’m an aggrieved petitioner that was fired once I exercised my employee rights i.e. made protected activity
complaints work conditions?
4. According to the Occupational Safety and Health Standards Sec. “Duties of Employers and Employees”
(1) I was instructed to work on telecommunications equipment with live energized wires along with electrical
systems without any training in rainy conditions, (2) what action should the respondent have taken when I
forwarded the respondent my protected activity complaints including images of wet electrical equipment, (3)
should the respondent have solicited training records from my former employer to prove I received training
considering my former employer disputes that I was not trained?

£c

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
&0 All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
1. Occupational Safety and Health Administration - U.S. Department of Labor
(respondent)
2. K&M Systems Inc. (Former employer)
I initiated a whistleblower complaint against this company through respondent.

Pa.7

/V

TABLE OF CONTENTS

OPINIONS BELOW

fpg. 4

JURISDICTION

Pg.5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Pg.6

STATEMENT OF THE CASE

Pg. 9

REASONS FOR GRANTING THE WRIT

Pg. 10

CONCLUSION

Pg. 11

Table of Authorities Cited Pg.3
List of Parties Pg. 7
Questions Presented Pg. 8

INDEX TO APPENDICES

t

APPENDIX A
Appendix A
APPENDIX B

APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

vs-2-

TABLE OF AUTHORITIES CITED

CASES
Cruz v. Coach Stores, Inc., 202 F.3d 560 (2d Cir. 2000)

PAGE NUMBER
9

STATUTES AND RULES
Civil penalties and injunctive relief for the repeated and willful osha rule violations:
1. Civil penalties and injunctive relief for the violation of Occupational Safety and
Health Act Standards of 1910.332(a). “Electrical Training - Scope”.
■t

2. Civil penalties and injunctive relief for the violation of Occupational Safety and
Health Act Standards of 1910.332(b)(1) “Electrical - Training”
3. Civil penalties and injunctive relief for the violation of Occupational Safety and
Health Act Standards of 1910.332(b)(2). “Electrical - Training”
4. Civil penalties and injunctive relief for the violation of Occupational Safety and Health Act
Standards of 1910.332(c). “Electrical Training - Scope”.
5. Civil penalties and injunctive relief for the violation of Occupational Safety and Health Act
Standard of 1910.268(c). “Telecommunications Training”.
OTHER

Pa.3

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

D^| For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix A
the petition and is
1X1 reported at Court of Appeals 2nd Circuit

I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix A
the petition and is

to

M reported at Court of Appeals 2nd Circuit
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

Pn 4

JURISDICTION

For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was 04/9/2020
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: 6/10/2020_____
, and a copy of the
order denying rehearing appears at Appendix A
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date)
(date) on
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) in
(date) on
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

Pg. 5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Civil penalties and injunctive relief for the violation of the all the following:
1.0SH Act1970, Section 11(c) 29 U.S.C. §660(c)."Whistleblower 11c".
2. Civil penalties and injunctive relief for the violation of 29 USC 666(a)(g) “Civil penalties”.
3. 29 U.S. Code § 654(a)1(2)(b) “Duties of employers and employees”.
4. 5 U.S. Code § 552a (e)(1)(5)(6)(9)(F)(g) "Records maintained on Individuals".
5. 29 U.S. Code § 660(a)(b)(c)(2) "Judicial Review".
6. 28 U.S. Code §1111331. "Federal Question".
7. 5 U.S.C. § 702 "Right to Review".
8. 5 U.S. Code §D706 (1)(2)(a)(b)(c)(d)(e)(f) "Scope of Review".
9. Article I, Section 8, Clause 3 "Commerce Clause".

Pg.6

STATEMENT OF THE CASE
(a) I assert I was retaliated against by my former employer (K&M Systems Inc.) after I made protected
activity complaints involving unsafe work conditions. On 11/5/2018 I made my final work complaint
regarding unsafe work conditions; where I was instructed to install telecommunications equipment in
the rain with zero training.
(b) Within two weeks of said protected activity complaint (Email to HR) I was discharged, which is
unlawful. “An employee’s opposition to an unlawful employment practice, or participation in an
investigation, proceeding or hearing under Title VII, is referred to as “protected activity” Cruz v. Coach
Stores, Inc, 202 F.3d 560, 566 (2d Cir. 2000).
(c) Next I filed a whistleblower complaint; I was interviewed by the respondent's investigators, I
provided all my employee evidence including work emails that depict images of wet electrical
equipment I was instructed to operate on via my former employer.
Statement of case continued
(f) APA Procedural Issues - The regional investigator (Dennis Vamakas) failed to integrate employee
records into the whistleblower! 1c investigation, which helped to dismantle the agency’s (osha)
procedural process. The respondent (osha agency) cannot refer to the APA as a shield of agency
autonomy considering 29 U.S. Code § 660(a)(b)(c)(2) (Judicial Review) and 5 U.S.C. § 702 (Right to
Review) offers persons adversely aggrieved by agency decisions the right to seek a judicial review
involving whistleblower decisions.
(g) The respondent refers to the administrative procedure act (APA) as the statue that enables the
respondent to make final decisions/rulings involving whistleblowerl 1c-retaliation claims. The
Administrative Procedure Act (APA) instructs courts reviewing regulation to invalidate any agency
action found to be "arbitrary, capricious, an abuse of discretion". I allege the respondent is guilty of
"arbitrary, capricious, an abuse of discretion" pursuant to 5 U.S. Code §D706.Scope of review
considering no employment records were integrated into this investigation to contest my whistlblower
status specifically to disprove I was not terminated for making protected activity complaints.

(h) This statue only protects federal agencies when a complete investigation encompassing reliable
evidence and the petitioner is not aggrieved by the respondent's decision pursuant to 29 U.S. Code §
660(a)(b)(c)(2) (Judicial Review) and 5 U.S.C. § 702 (Right to Review).

(i) Also the judicial review statute (29 U.S. Code § 660 Judicial Review) and the Section 11(c) of the
OSH Act of 1970 (Whistleblower/Retaliation), makes no mention that whistleblowerl 1c decisions are
exclusive under the sole discretion of the secretary of labor (OSHA - U.S. Department of Labor).

(j) The Osha (agency) whistleblowerl 1c investigation was concluded unsatisfactorily; the
investigation omitted employee records and did not address my unsafe work conditions complaints.
My former employer failed to maintain an employee retention record for me, which also suggests
discrimination because it shows I was disregarded in the workplace.

Pt

REASONS FOR GRANTING THE PETITION
Requesting Compensatory & Punitive Damages Remedies, Please Grant This Petition For The
Following Reasons:
(1) To safeguard my civil rights and liberties as a whistleblower whom reported wrongdoing on the job
specifically unsafe work practices. I have a right to work in a safe environment free from hazards and
unsafe work tasks.

(2) I reported unsafe conditions to protect public interest from hazardous job practices that could have
potentially brought unwarranted harm to the public i.e. trips, falls, falling objects from telecom shrouds
considering I worked at height, toxic debris emitted in air from telecom installations, and poor wireless
reception as a result from telecom installations.
(3) Back pay,out of expense jobs search, liquidated damages involving set contract provisions
pursuant 29 U.S.C. §660(c)...”Whistleblower11c”.
(4) The respondent (osha) violated the "Privacy Act" as it relates to my whistleblower claim involving
failure to collect, maintain, and dissimenate employee records in an employment investigation. The
privacy act has jurisdiction over the respondent - occupational safety and health administration federal agency.
(5) Knowingly and willfully disclosing individually identifiable information which is prohibited from such
disclosure by the Act or by agency regulations; or
Willfully maintaining a system of records without having published a notice in the Federal Register of
the existence of that system of records pursuant to 5 U.S.C. Sec. 552a(g)

(6) (a) The respondent asserts that federal courts do not possesses jurisdiction involving
"whistleblowerl 1c-retalition" claims, (b) the respondent affirms exclusive discretion of this specific
claim, (c) which the second circuit agreed with by way of dismissing my petition for lack of jurisdiction,
(d) My petition actually with judicial review and right of review statues including the commerce clause
of the U.S. Constitution.
(7) The lower court made an erroneous decision dismissing my petition for a lack of jurisdiction when
the second circuit actually possessed jurisdiction pursuant to (a) federal question, (b) judicial review,
and (c) right of review statutes including the (d) commerce clause of the U.S. Constitution.
(8) This court represent the final step for me to redeem justice involving employment injustices I
experienced at the hands of the respondent including my former employer (K&M Systems Inc.) The
respondent's defective whistleblower investigation adversely impacts the civil rights of americans e.g.
employee rights, considering whistleblowing serves to reinforce the law. Whistleblowing also serves
to protects the integrity of corporte culture via promoting danger free work environment.
Americans have the right to a safe work environment.

K.|t>
Pg-1

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully'
Z^aVii \Mjche

"V-

Date: 11/08/2020

1

